5/19/2016

Trustmark Banking and Financial Solutions
Home

Personal

At a Glance
About Us | Checking | Savings |
Loans | Online Banking | Calculators

Business

Mortgage

Wealth Management

Risk Management

Online Banking

Investor Relations

Personal Banking
Services

Common Questions
Let our online Customer Service help
you get your questions answered.
Browse questions other customers have
asked or submit one of your own.

Card Services
Summary of Credit Terms ­ Visa® Platinum Card
Annual Percentage
Rate (APR) for
Purchases

0.00% Introductory APR for the first six Billing Cycles.

APR For Balance
Transfers

0.00% Introductory APR for the first six Billing Cycles. Your APR will

APR for Cash
Advances

19.90% APR

Penalty APR and
When it Applies

21.00%
This APR may be applied to your account if you make a late payment
and/or make a payment that is returned for any reason.

After that, your APR will be based upon the Prime Rate plus a Margin*
of 2.90%, 5.90% or 7.90%. This APR will vary with the market based
on The Wall Street Journal Prime Rate**; however, it will never be
greater than 21.00% (Ceiling).

be based upon the Prime Rate plus a Margin* of 2.90%, 5.90% or
7.90%. This APR will vary with the market based on The Wall Street
Journal Prime Rate**; however, it will never be greater than 21.00%
(Ceiling).

How Long Will the Penalty APR Apply? If your APRs are increased for
any of these reasons, the Penalty APR will apply until you make six
consecutive minimum payments when due.

Paying Interest

Your due date is at least 25 days after the close of each Billing Cycle.
We will not charge you Interest on Purchases if you pay and we
receive your entire balance by the due date each month. We will begin
charging Interest on Cash Advances and Balance Transfers on the
transaction date

Minimum Interest
Charge

If you are charged Interest, the charge will be no less than $0.50

For Credit Card Tips
from the Federal
Reserve Board

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Federal Reserve Board at
http://www.federalreserve.gov/creditcard.

*Your regular APR for Purchases and Balance Transfers is based upon our evaluation of your income and
credit information at the time you apply.
**The Prime Rate used is the highest “Prime Rate” as published in The Wall Street Journal on the last day of
the month in which the Billing Cycle began or, if not published that day, on the next day published.
Fees

Annual Fee

https://www.trustmark.com/personal/creditterms­visa.html

None

1/2

5/19/2016

Trustmark Banking and Financial Solutions
Transaction Fees
• Foreign Transaction

Penalty Fees
• Late Payment
• Over­the­Credit Limit
• Returned Payment

3% of each Purchase or Cash Advance transaction amount

Up to $37

Up to $37
Up to $37

How We Will Calculate Your Balance: We use a method called "average daily balance (including new
purchases)". See your Cardholder Agreement for more details.
Loss of Introductory APR: We may end your Introductory APR and apply the Penalty APR if you make a late
payment.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in
your Cardholder Agreement.
Monthly Cash Rebate: You will receive a 1.5% Cash Rebate on qualifying gas and grocery purchases and a
0.50% Cash Rebate on all other purchases each billing cycle. Your Cash Rebate will be based on the total net
Purchases (Purchases less Returns) posted to your Account during your Billing Cycle. Your Cash Rebate will
be credited to your Credit Card Account, or a Trustmark deposit Account you have designated, by the fifth
business day of the following Billing Cycle. Should the amount of Returns exceed the Purchases during any
Billing Cycle, resulting in a credit balance, your Account will be debited accordingly.
The Cash Rebate is offered at our sole discretion. We may, from time to time and in our sole discretion, change
or limit any aspect of the Cash Rebate and its rules, restrictions, benefits or features, in whole or in part,
including, but not limited to, suspending or terminating all or part of the Cash Rebate, with or without prior
notice to you (except where required by law). We also reserve the right to add any Program membership or
other fees or increase such fees, if any. Our decisions regarding the Program are final.

Investor Relations | Contact Us | Privacy Policy
Trustmark National Bank
Corporate Offices
P.O. Box 291
248 East Capitol Street
Jackson, Mississippi 39201

Member FDIC

Main switchboard, 1­800­844­2000
Offices in Alabama, Florida, Mississippi, Tennessee & Texas

https://www.trustmark.com/personal/creditterms­visa.html

2/2

